Record Press Inc., 229 West 36th Street, New York, N.V. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141
87781
STATE OF NEW YORK,
AFFIDAVIT OF SERVICE

SS:
COUNTY OF NEW YORK

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years of age.
That on the 18th day of July 2021 deponent served 3 copies of the within
BRIEF IN OPPOSITION
upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAV DELIVERY
Elizabeth 8. Prelogar
Acting Solicitor General
United States Department of Justice
850 Pennsylvania Avenue, NW
Washington, DC 20530-00 □ 1
(202)-514-2217
Joshua A. Klein
California Department of Justice
Office of the Solicitor General
1515 Clay Street, Suite 2000
Oakland, CA 84612-1413
51 □ -878-0756

Lawrence J. Joseph
Law Office of Lawrence J. Joseph
1250 Connecticut Avenue, NW
Suite 700-IA
Washington, DC 20036
202-355-8452
I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America that the foregoing is true and correct, executed on
July 14, 2021, pursuant to Supreme Court Rule 28.5(c). All parties required to be served, have been served.

~ew-tld)~
Howard Daniels

Sworn to me this
July 14, 2021
Jasmine Williams
Notary Public, State of New York
No. □ IWl6387848
ualified in llueens County
ion Expires
er 16, 2023

Case Name: Joseph R. Biden, Jr., President of the United States v.
Sierra Club
Docket/Case No. 20-685

